\

4S •'

2 I -hsi

Supreme Court, U.S.
FILED

No. USCA2 No. 20-947

JUL 1 9 2021
OFFICE OF THE CLERK

IN THE

SUPREME COURT
OF THE UNITED STATES
LISA. “LEE” WHITNUM - PETITIONER
vs.
OFFICE OF THE CHIEF STATE’S ATTORNEY,
KEVIN KANE, JOHN WHALEN,
JANE DOES 1-25, JOHN DOES 1-25,
ABC INSURANCE COMPANIES 1-10
On Petition For Writ of Certiorari
To The
United States Court of Appeals For the Second Circuit

PETITION FOR WRIT OF CERTIORARI
L. Lee Whitnum
P.O. Box 7482
Greenwich, CT 06836
LeeWhitnum@yahoo.com
203-692-5027

TABLE OF CONTENTS
TABLE OF CONTENTS

1

TABLE OF AUTHORITIES

iii

A.

SUBJECT MATTER JURISDICTION and JUDGE'S NAMES

3

B

STATEMENT OF THE CASE

3

C.

SUMMARY

3

D.

RELIEF REQUESTED

5

E.

ARGUMENT

5

I.
THE 12 CAUSES OF ACTION NEED DISCOVERY AND NORMAL DUE
PROCESS
6
II.
THE 11TH AMENDMENT DOES NOT BAR A DAMAGES ACTION
AGAINST STATE PLAYERS.............................................................................

7

III.

7

ORAL ARGUMENT WAS DENIED

IV.
JOHN WHALEN DID THE BIDDING OF HIS “BUDDY’ JANE EMONS
AND KEVIN KANE ALLOWED IT - THE HISTORY, THE CRONYISM............

8

V.
PROSECUTOR JOHN WHALEN REOPENED THE RING-AND-RUN
DESPITE THE FACT THAT IT WAS ‘ADMINISTRATIVELY CLOSED’............ 10
VI.
JOHN WHALEN REFUSED TO ADJUDICATE FOR YEARS FORCING
THIS LITIGANT TO APPEAR MORE THAN 35 TIMES IN NORWALK CRIMINAL
COURT.
11
VII. MAGISTRATE MERRIAM PASSING JUDGMENT ON WHALEN’S
INNOCENSE IN HER ORDER WAS INAPPROPRIATE AND PROOF OF BIAS. 12
VIII. MAGISTRATE MERRIAM RESORTS TO LYING. ACCUSES THIS
LITIGANT OF NOT SEEKING SPEEDY TRIAL..........................................

13

IX.
MAGISTRATE MERRIAM ABUSED ‘FAILURE TO STATE A CLAIM’ AS IT
IS SUBJECTIVE. LIE #3
13
X.
MAGISTRATE SARAH MERRIAM DEFENDED JOHN WHALEN IN HER
RECOMMENDED RULING WITH A LIE.
14

XI.
THE MALICIOUS PROSECUTION SHOULD STAND BECAUSE THERE
WAS FAVORABLE TERMINATION........................................................................... 15
XII. THE TRUE PHONE RECORDS EXONERATED THIS LITIGANT AS IT IS
PROOF POSITIVE OF HER INNOCENCE. SHE WAS IN MANHATTAN AT THE
TIME OF THE-RING-AND-RUN.
17
XIII. DID MAGISTRATE SARAH MERRIAM ERR IN HER RULING BY
IGNORED PARAGRAPH 36 THE MOST DAMNING EVIDENCE AGAINST
WHALEN AND EMONS. LIE #4..........................................................................

18

XIV. DID THIS MAGISTRATE ERR WHEN SHE FAILED TO ADDRESS ANY
OF THIS PLAINTIFF’S ARGUMENTS...................................................................... 20
XV. DID THIS MAGISTRATE ERR WHEN SHE DEMONSTRATED A CLEAR
DESIRE TO ELIMINATE THIS CASE BY ATTEMPTING TO ABUSE THE
PAUPEROUS STATUTES.............................. .......................................................... 21
XVI. THE ABUSE OF ‘FAILURE TO STATE A CLAIM TO WHICH RELIEF CAN
BE GRANTED’ IS A LIE (LIE #5) - A PLOY TO THROW THE CASE
21
XVII. BECAUSE MAGISTRATE SARAH MERRIAM WAS ABUSING THIS
LITIGANT’S PAUPERUS STATUS, THIS LITIGANT FILED A MOTION TO
CHANGE HER STATUS. THIS MAGISTRATE ATTEMPTED TO DISMISS
CITING SECTION 1915(e)(2)(A)...........................................................................

23

XVIII.
THIS LITIGANT DID NOT REMOVE THE CAUSE OF ACTION IF SHE
DISAGREED WITH THE JUDGE. A RIGHT TO DEFEND CAUSES OF ACTION
VIA DISCOVERY IS IN ORDER
25
XIX. FEDERAL JUDGE UNDERHILL, LIKE MAGISTRATE SARAH MERRIAM
AFFORDED RIGHTS TO THE POWERFUL............................................................. 27
XX. THE CONSTITUTIONAL VIOLATIONS IN THE AMENDED COMPLAINT
MUST STAND. THE DISMISSAL WAS SUBJECTIVE, SO LEAVE IT TO A JURY
TO DECIDE.
30
XXI. EMONS’ ROLE IN ALL OF THIS IS TELLING. DESPITE THE FACT THAT
SHE IS NO A LONGER A JUDGE, THE SYSTEM SEEMS STILL BEHOLDEN TO
HER. PLEASE BREAK THE PATTERN.
32

E.

CONCLUSION

CERTIFICATION AND WORD COUNT

34
35

TABLE OF AUTHORITIES
Section 1915(e)(2)(A) of the United States Code

6, 34

The First Amendment

6, 34

The Fourth Amendment

6, 34

The Fifth Amendment

6, 34

The Sixth Amendment of the US Constitution, CPL § 30.20

6, 8, 28, 31

The Due Process Clauses of the United States Constitutions (U.S. Const.,
amend. XIV; N.Y. Const., art. I, § 6)....................................................................... 6, 34
Claim Under 42 U.S.C § 1983...................................................................................
Civil Conspiracy Claim Under 42 U.S.C § 1985(3).............................................

6, 34
6, 34

Connecticut Constitution, Article 1, SEC. 8, SEC 9, SEC 20 and Article 17..6, 34
Case Law;
Brady v. Maryland, 373 U.S. 83 (1963)

2, 7, 28, 34

City of Canton v. Harris-' 42 USC1983.

2, 7, 28, 34

Whitnum v. Emons, FST-CV20-5022941-S,
Whitnum v. Emons, Whalen, 3:l5-cv0959

32
13, 27, 29

Statutes'
Prison Litigation Reform Act of 1995 Pub. No. 104-134, § 804(a)(5), 110 Stat. 1321,
1321-74 (1996), codified at 28 U.S.C. § 1915(e)(2) (1996).
21
Media
Jane Emons Failed Reconfirmation Hearing, February 16, 2018 (page 87 begins
The Emons testimony).......................................................

33

httpV/ct-n.com/ondemand.asp?id=15000&jwsource=cl

ill

I.

Question(s) Presented

I.
Did the Appellate Second Circuit err when they upheld the District
Court’s dismissal of plaintiffs amended complaint and 12 causes of action
stating “Whitnum failed to plead that the charges against her terminated in her
favor,” when “favorable termination” was a requirement for only one cause of
action?
Did the Appellate Court Second Circuit in 20-947 err when they defended
II.
District Magistrate Sarah Merriam’s choice to issue a Recommended Ruling
when it is well-known the Recommended Ruling is a means to dismiss cases
against the powerful and to prevent discovery.
III. Did the Appellate Court Second Circuit err by failing to address 11 of the
12 dismissed cause of action. Instead they addressed only “malicious
prosecution”.
IV. Did the Appellate Court err by not recognizing the evidence that the
criminal charges pressed by the defendants were a criminal frame by these very
defendants? Shouldn’t that make the need for “favorable termination” moot and
a red-flag to at least mention some of the other 11 other causes of action?
V.
Did the Appellate Court err stating plaintiff “has not plausibly alleged
that any of the criminal proceedings against [her] were terminated in a manner
indicating [her] innocence. ” This is in direct contradiction to the fact that the
defendants created the criminal frame, which makes moot the need to
“terminating indicating ...innocence.”
VI.
Did District court Magistrate Merriam display bias when she refused to
mention paragraph 36 which explicitly details Prosecutor John Whalen’s role in
the criminal frame, specifically an examination of Prosecutor John Whalen’s
altering plaintiffs phone records in his report #2013-0213.
VII. Did the Courts err by not addressing the fact that the defendants opened a
case already “Administratively Closed” by another police agency, the
Woodbridge Police, and the role of double jeopardy and Connecticut cronyism in
this matter?
VIII. Did District Court magistrate display bias when she refused to interpret
the evidence presented on report #2013-0213 accurately, twisting the facts and
announcing in her Order of John Whalen’s lack guilt. Was this bias?
1

IX. Did the Magistrate Sarah Merriam use the Recommended Ruling in order
to deny due process - dismissing this case at the complaint level? Did the
Appellate Second Circuit err when they implied her use of the Recommend
Ruling was acceptable?
X.
Did the Magistrate and the Appellate Court err when they ignored the
argument of Brady Violation and City of Canton v. Harris, -'and the fact that
Defendant Kane was sent more than 40 emails from the plaintiff asking for
relief from the actions of his underling, John Whalen, Assistant Chief State’s
Prosecutor?
XI. Did the Magistrate and the Appellate Second Circuit err by failing to
mention that the plaintiffs true phone records exposed John Whalen who
refused to allow any of more than six motions to dismiss to be heard to bury the
evidence of his altering his report #2013-0213.
XII. Does a candidate (Congress, Senate) who speaks out against the United
States funding of Israel have a right not to be criminally framed and abused by
the Statewide Prosecutor’s office, and the Court system. Does the Court have an
obligation to look at the whole situation — the history of the players — all the
causes of action?
XIII. Does the Supreme Court of the United States have an obligation to make
sure that the Courts are for justice and not a vehicle for powerful people to
abuse their role in order to torture political enemies as a favor for their friends.

2

A.

STATEMENT OF SUBJECT MATTER JURISDICTION
This is an appeal of the United States Court of Appeals Second Circuit 20

947 and Federal District Court of Connecticut 3‘18“cvl991
Judges- 18-CV-1991- Magistrate Sarah Merriam, 20947- RAYMOND J.
LOHIER, JR., STEVEN J. MENASHI, Circuit Judges, ERIC KOMITEE,
B.

STATEMENT OF THE CASE
This defendant-appellant respectfully submits this petition for a Writ of

Certiorari to the Supreme Court of the United States for certification to appeal
from the decision of the US Court Appellate Court Second Circuit Petition for
the upholding of this case (Appendix A the Order dated February 19, 2021 and B
the Mandate dated March 12, 2021) and the Order from the Connecticut District
Court (Bridgeport) entered in this case February 2, 2021 (Appendix C). The fact
that the defense failed to file a reply brief and next lied, stating that service had
not been done, is not true. This fact was ignored by the Second Circuit despite
the fact that the proof of service was on the record (Appendix D). The Second
Circuit basically upheld with no argument by the defense!
The US Court of Appeals 2nd Circuit, despite the evidence, ruled to uphold
the lower court’s decision - ignoring most of the evidence and most of the
plaintiffs argument. The Connecticut District Court and the US Court of
Appeals 2nd Circuit erred in their determinations. This defendant-appellant, pro­
se hereby moves the Court for certification to question the Appellate Court’s
decision on the ruling listed above.
3

C.

SUMMARY
At various times since 2013, Defendants Kevin Kane ("Kane"), John

Whalen ("Whalen") and Connecticut Office of the Chief State’s Attorney
("CSAO") and other employees, as a matter of official policy and practice,
wrongfully altered evidence and concealed exculpatory evidence, sought
prosecution for crimes already administrative closed by another police agency.
abused prosecutorial rights to harass a citizen who they disagreed with political
and/or for personal reasons, deprived this litigant of her right to have a Motion
to Dismiss heard, and maliciously prosecuted this litigant in violation of her
rights under the Constitution of the United States and the constitutional and
statutory authorities of the law of the State of Connecticut.
This litigant was criminally framed by the defendants for a crime they
orchestrated. Chief State’s Prosecutor Kevin Kane was sent more than 40 emails
which have been put on the record, some containing copies of the Motions to
Dismiss complete with the evidence of the criminal frame. He did nothing and by
doing so he allowed his underling, Assistant Chief States’ Prosecutor John
Whalen, to use the court system to torture. Whalen was there, unabashedly and
admittedly, at the behest of disgraced former judge Jane Emons - who was
politically motivated to harm this litigant for political reasons.
The attempts for justice in that case has been prematurely dismissed not
on the merits or the evidence - but on a “Recommended Ruling” by District
Court Judge Sarah Merriam. The Recommended Ruling is designed to eliminate
4

cases and to eliminate the due process rights of certain citizens, such as
incarcerated prisoners. This litigant is not and was not incarcerated.
To use the “Recommended Ruling” statute is to deny due process and
justice forcing this litigant to defend her case at the complaint level; no discovery
or due process was allowed. Clearly this was to protect the powerful. The
“Recommended Ruling” is packaged as a benevolent move to aid the pro se, it is
rather, a statute used to weed out the frivolous cases or cases challenging
powerful state players.
This case is not frivolous but it is up against the most powerful players in
the State of Connecticut. It would take a very brave judge, to have the strength
of character to fight for this litigant’s rights. So far, no such judge has not been
found.
D.

RELIEF REQUESTED
This matter needs to be remanded for justice of the federal causes of

action and/or remand to Superior Court for the lower court causes of action.
Magistrate Merriam with her Recommended Ruling, by dismissing all 12 cause
of action at the complaint level, eliminated the ability to reopen at the Superior
Court for the lower court causes of action.
Magistrate Merriam in the ratification of the Recommended Ruling (A13)
dismissed all the federal causes of action, and with it the Superior Court causes
of actions. But this litigant in this writ, is fighting for due process, as she

5

believes she can prove her accusations and the violations of her rights
especially the right to due process.
E. ARGUMENt
I.
THE 12 CAUSES OF ACTION NEED DISCOVERY AND NORMAL DUE
PROCESS

What is at trial here is the system. Plaintiff is fighting for her case and
her causes of action. Here they are*
1.

The First Amendment

2.

The Fourth Amendment

3.

The Fifth Amendment,

4.

The Sixth Amendment of the United States Constitution, CPL § 30.20

5.

The Due Process Clauses of the United States Constitutions (U.S. Const.,

amend. XIV; N.Y. Const., art. I, § 6).
6.

Claim for Malicious Prosecution

7.

Claim for Intentional and/or Reckless Infliction of Emotional Distress

8.

Claim Under'42 U.S.C § 1983

9.

Civil Conspiracy Claim Under 42 U.S.C § 1985(3)

10.

Direct Action Pursuant to Connecticut’s rules regarding insurance

companies
11.

Claim Under Connecticut Constitution, Article 1, SEC. 8, SEC 9, SEC 20

and Article 17
6

-

12.

Claim for Negligence and/or Negligent infliction of emotional distress.
This litigant turns the Courts attention to the two cases of which she

relied heavily- City of Canton v. Harris- which is the Deliberate Indifference
Standard in 42 USC 1983 also known as “Failure to Train Cases” and Brady v.
Maryland., 373 U.S. 83 (1963) which specifically addressed the withholding of
evidence which violates a defendant's constitutional right to due process.
II.
THE 11TH AMENDMENT DOES NOT BAR A DAMAGES ACTION
AGAINST STATE PLAYERS. LIE #1

In one of several bizarre statements, Magistrate Merriam claimed the that
Eleventh Amendment bars a damages action against a State in federal court.
But that is not true if a federal cause of action lives. Thus her determination to
shoot down each federal cause of action.

III.

ORAL ARGUMENT WAS DENIED
This litigant disagreed with this Magistrate on so many points of law but

Plaintiffs 17*page Objection (A36) was ignored and no reference made, and her
Further Objection (A53) ignored and no reference made. This litigant pointed
this out in the Motion for Clarification (A67) but it was next dismissed and
renamed as an untimely Motion to Reargue! Also two requests for oral argument
were also ignored. Basically Magistrate Merriam for this reason and others was
seemingly using any excuse to dismiss the case.
7

;'

The good Supreme Court judges know full well, as this litigant does, that
there is case law on both sides of every dispute. It depend on who you are
quoting. The law is subjective. But, in this case even a child could see that you
don’t criminally frame someone and abuse the court system to punish them.
There were so many violations by the employees under Kevin Kane, a child
could see it. What is our court system? Powerful people taking out vendettas and
doing the bidding of their friends? That is what has happened here in nine years
and these judges must know the circus atmosphere, and larger political scene,
leading up to the filing of this case.
The denial by the Magistrate of this plaintiffs requested oral argument on
several occasions (A53 and A67) was for this Magistrate to avoid being called by
this litigant on some of her misconceptions and errors. Even if it were good faith
oral argument should have been allowed- Case in point- Magistrate Merriam
stated in her order that John Whalen only delayed for two months. Not only was
this not true, she was clearly to addressing the 6th and 14th Amendments. Why
say that at all? Why is the Magistrate defending the prosecutor? Factually
Whalen delayed the adjudication of some charges for almost three years! The
Magistrate erred or lied.
IV. JOHN WHALEN DID THE BIDDING OF HIS “BUDDY” JANE EMONS
AND KEVIN KANE ALLOWED IT - THE HISTORY, THE CRONYISM. ...8

To reiterate- This litigant, a Harvard graduate, first time offender in her
mid*50’s was a former political candidate. She was forced to appear in criminal
8

court for more than 35 court appearances for infractions that were either not
crimes or crimes she did not commit. How it beganThe plaintiff was a married, White woman in her mid-50s, a Harvard
master’s degree graduate and a teacher with no prior criminal record, when she
first entered a Connecticut Superior Courthouse eight years ago. A member of
the peace community and a sometime political candidate1, now retired, the
plaintiff encountered former judge Jane Emons on that first day and her life has
been embroiled in legalities ever since. Eight long years now and the plaintiff
has been in the court system fighting against the aggressive actions of a
predator- the how disgraced former judge Jane Emons.
Prior to the incidents of this case- In wasn’t enough that Jane Emons
railroaded into divorce and awarded not even a dime, she was instrumental in
keeping this plaintiff from her infirmed husband until his death, 4 1/2 years
with no access. As if that weren’t enough, Jane Emons sought to have this
plaintiff incarcerated. Jane Emons, to harm, abused law enforcement officers
and the court system when she claimed this plaintiff rang her bell and ran,
herein called “the ring-and-run”, on the morning of June 22, 2013. Although
Emons claimed in the Woodbridge Police Report (A127) that she saw no one, she
named this plaintiff and demanded the Woodbridge Police do an investigation
including a telephone record investigation for a ring and run! The Woodbridge

1 This litigant ran for Congress 2008, Senate 2010, Governor 2018.
9

Police did just that- they investigated for three months and administratively
closed the case against this plaintiff on 9*17-20132. (A136 the last line)
V.
PROSECUTOR JOHN WHALEN REOPENED THE RING-AND-RUN
DESPITE THE FACT THAT IT WAS 'ADMINISTRATIVELY CLOSED*. 10

Due to her power Emons next had the case reopened by the defendants
Connecticut States Attorney’s office - for a “ring-and-run” a case already
“Administratively Closed” by the Woodbridge Police. To make their case and to
appease Jane Emons and to give Emons the protective order she demanded,
John Whalen and the defendants, altered this plaintiffs phone records on report
#2013-0213 (A145). This is provable fact: (A145) especially concentrating on the
comparison between (A148) which shows the change by Whalen’s report 20132013, this was to make the narrative on A147 that this litigant was in the
vicinity of Emons’ house.
It is an absolute lie and if this case were remanded and presented to a
jury, this litigant can prove her claims. The testimony and affidavit of telephone
expert explains clearly of the impossibility of a phone allegedly from a phone and
yet linked to two separate cell towers two hours apart. It is impossible. What the
criminal framers did not count on was this plaintiff being out and about in New
York City on the night of their alleged criminal frame. This litigant states

2 Despite the fact that a police report by the Woodbridge Police states the case was
administratively closed in 2013 after a three-month investigation (A136, the
last line) finding no connect to Emons’ doorbell by the plaintiff, Whalen reopened the case.
10

clearly, she was criminally framed by Assistant Chief States Prosecutor John
Whalen doing the bidding of his “buddy of 35 years” disgraced former judge Jane
Emons.
Most shocking is the fact that defendant, former Chief States Attorney
Kevin Kane, John Whalen’s boss, was apprised all along (more than 40 emails to
Kane have been annexed in this case) and yet Kane refused to reel Whalen in.
This is a fact that Magistrate Sarah Merriam refused to see.
VI. JOHN WHALEN REFUSED TO ADJUDICATE FOR YEARS FORCING
THIS LITIGANT TO APPEAR MORE THAN 35 TIMES IN NORWALK
CRIMINAL COURT

Prosecutor Whalen, doing former judge Jane Emons’ bidding, used the
court system to torture. Whalen even falsified evidence on his report #201300213 (A145 compared to A148) to appease Emons and in an obvious quest to
railroad into prison. This litigant believes Whalen, Kane and Kane’s other
employees were just foot soldiers abusing the system because they could. Acting
at the mere suggestion of a “buddy.” But Jane Emons, a judge now disgraced as
she was “retired” due to overwhelming complaints. Emons worked behind the
scenes to abuse the system, in this case to harm this litigant for her outspoken
political beliefs against the US funding of Israel.
The prolonged adjudication cost this litigant in every possible way. The
refusal to allow the unlawful trespassing charge (a separate but significant
misdemeanor) to be heard kept her from her own husband until his death, her
11

teaching job as she was not able to work with pending criminal charges and was
kept from employment for 3 years as a result. Whalen knew of everything that
was at stake.
VH. MAGISTRATE MERRIAM PASSING JUDGMENT ON WHALEN’S
INNOCENSE IN HER ORDER WAS INAPPROPRIATE AND PROOF OF BIAS.

Magistrate Sarah Merriam passing judgment on Whalen’s behavior and
innocence in the Recommended Ruling was inappropriate and proof of bias. She
passed judgement even before approving a viable complaint! Her Order goes on
the record, and serves two purposes- to exonerate Whalen and to make this
litigant look guilty which is defamation by judicial order.
Magistrate Sarah Merriam’s Order accepting the Recommended Ruling
and dismissing this case was full of inaccuracies and falsehoods. The only excuse
for so many inaccuracies is bias.
For argument’s sake let’s assume that this litigant never rang Jane
Emons bell on June 22, 2013 and that the only reason Jane Emons stated such a
falsehood was to get a protective order against this litigant as the precise order
requires a limited scope for charges such as “lying in wait” thus the stalking
charge3.

3 Emons’ goal of the bogus ring*and*run was clearly to get the stalking charge with the
ultimate goal of a protective order and the long jail terms it implies. Emons with the help of
Whalen succeeded. Emons next, over several months 8*2013 through 10*2013, demanded
several times that the State Police arrest this litigant every time she walked into the
Stamford Courthouse. At the State Police Department’s urging, this litigant had the
Protective Order modified on Oct. 25, 2013 to allow access to the Courthouse.
12

VIII. MAGISTRATE MERRIAM RESORTS TO LYING. ACCUSES THIS
LITIGANT OF NOT SEEKING SPEEDY TRIAL. LIE #2.

The selective blindness by Magistrate Merriam is shocking. She states
that this litigant did not seek speedy trial (A13, A25) - absolutely not. The was a
Motion for Speedy Trial filed in the Norwalk Court House which was dismissed
with prejudice by Judge Wenzel (A219). And next this litigant took that denial
and created an injunction in the federal court in case 3*15-cv-0959, using
Wenzel’s denial as an exhibit. Federal Judge Underhill refused to address the
July 27, 2015 injunction (July 27, 2015 in 3H5-cv0959) which requested that he
force Whalen to bring to trial immediately or drop the charges. Magistrate
Merriam had been told this and yet her Recommended Ruling - one of them ■ is
a little flabbergasting.
IX. MAGISTRATE MERRIAM ABUSED ‘FAILURE TO STATE A CLAIM’ AS
IT IS SUBJECTIVE. LIE #3

Sarah Merriam is clearly hell-bent to dismiss this case in any way she
could and she was not above lying to do so. Please examine her behavior. The
Amended Complaint (A89) is 35 pages and this litigant is very clear, having
submitted many, many exhibits to back her points and still Magistrate Merriam
says she can’t see it and claims repeatedly “failure to state a claim.” Referring to
an exhibit, especially one dated stamped by the Norwalk court - is not ‘failing to

13

state a claim,’ it is proof positive and beyond dispute. Judge Sarah Meriam
erred, she must be made to step down in this matter, remand is in order.
X.
MAGISTRATE SARAH MERRIAM DEFENDED JOHN WHALEN IN
HER RECOMMENDED RULING WITH A LIE. LIE #3

Judge Merriam has passed a judgment on Whalen's guilt in the second
Recommended Ruling (A16) - even before a viable Complaint had been approved.
This Selective blindness was outrageous and inappropriate. In her order she
states the followingThe only difference between the record plaintiff confirms to be accurate,
and the recitation of the records in the Whalen report, is the change of the
‘INBOUND” to the word “OUTBOUND” doc. #35 at 10. The import of the
cell phone records at issue, according to the plaintiff, related to the cell
site location information provided, not to the question of whether plaintiff
make or reeved (received) a particulate call. See id. The cell site location
information is unaffected by the question of whether a call is inbound or
outbound. In sum, the alleged fabrication relied upon by plaintiff is utterly
irrelevant to the issue she raises regarding location information.

This is patently false and perhaps if Magistrate Merriam had allowed oral
argument she wouldn’t have made this inaccurate determination. The
Magistrate erroneously believes that outbound call or inbound, means the call
was dialed or a picked up the traditional way. Not at all. It is about the cell
tower location and whether the call was placed nearby or rerouted.
On the report from the Sprint Corporation- A call INBOUND means the
person is within several miles of the tower. It is a location indicator. Magistrate

14

Merriam didn’t see that. She didn’t read what this plaintiff wrote. She made an
assumption, allowed no oral argument and she was wrong.
The facts show, Whalen changed INBOUND to OUTBOUND on his report
#2013*0213 for a reason- to criminally frame. To place this plaintiff in the
vicinity of Jane Emons’ house on the morning of June 22, 2013 so he could make
the claim that she rang Emons bell and ran. It is an absolute lie.
Additionally, Judge Sarah Merriam does not dispute that Whalen altered
on his report the phone records. The fact this Magistrate thinks that is okay
brings us to the next issue:
XI. THE MALICIOUS PROSECUTION SHOULD STAND BECAUSE
THERE WAS FAVORABLE TERMINATION
Magistrate Merriam in her Recommended Ruling states the following on
the charges overall2. To the extent the plaintiff also argue that the content of the cell phone
record, including as set forth in the Whalen report, exonerates her from
the charge that she was at a particular location at a particular time, such
a claim does not relate to any alleged falsification by Whalen, but to the
allegation that the defendants engaged in malicious prosecution. As
previously discussed, that claim cannot stand. See Section III. A.

What! Well by Magistrate Merriam’s own admittance the malicious
prosecution cause of action should stand,, especially as state above, the stalking
charge was dropped by Whalen on the record. (A260).
There was favorable termination because Whalen dropped the stalking
charge on the record and that transcript has been annexed. The complaint was
15

39 pages long and this litigant did not expect to have to prove everything at the
beginning. This litigant has now included the transcript where John Whalen
dropped the stalking charge on the record, long before this litigant filed for
Accelerated Rehabilitation for the unlawful trespassing charge for trying to see
her own husband and other contrived charges. The most germane was the
stalking charge and it was already dropped it, and it was the reason for the
protective order. The malicious prosecution cause of action, as all of the 12
causes of action into Amended Complaint, should stand.
This plaintiffs true phone records (A148) for the night of the ring-and-run,
obtained via federal subpoena, placed her in Manhattan. Please study the
exhibit, specifically (A148) line. An INBOUND to the tower 72 means the call
was not routed and proves this litigant was in New York City as the call hit
cellular tower 72. Not only did Sarah Merriam not understand that she ignored
the fact that
Whalen changed this litigant’s phone records on his report #2013-00213
(A145). Magistrate Merriam refused to see this: stated the following in the
Recommend Ruling (A4, A16):
The only difference between the records plaintiff confirms to be accurate,
and the recitation of the records in the Whalen report, is the change of the
word ‘INBOUND” to the word "OUTBOUND.” Doc. #35 at 10. The import
of the cell phone records at issue, according to plaintiff, related to the cell
site location information provided, not to the question of whether plaintiff
made or received a particular call. See id. The cell site location
information is unaffected by the question of whether a call is inbound or
outbound. In sum, the alleged fabrication relied upon by plaintiff is utterly
irrelevant to the issue she raises regarding location information.
16

What is wrong with Magistrate Sarah Merriam? Is she saying in the
above that it is okay for a prosecutor to reopen a case already administratively
closed by the Woodbridge Police Department (A136) last line on the page) and to
alter this litigant phone records on this report?! Pile on more charges and
continue to prosecute? Is Magistrate Sarah Merriam so naive that she thinks it
is okay for a prosecutor to alter your phone records? She may not have studied
the evidence in the way this litigant has but what is without dispute- it is NOT
okay to alter evidence. But what is very telling is why she is bothering to defend
Whalen.
XII. THE TRUE PHONE RECORDS EXONERATED THIS LITIGANT AS IT
IS PROOF POSITIVE OF HER INNOCENCE. SHE WAS IN MANHATTAN AT
THE TIME OF THE-RING-AND-RUN

The phone record proves this plaintiff was in in New York City and it is
proof that John Whalen (Kevin Kane’s underling) altered plaintiffs phone
records on his report #2013*0213. If a call is INBOUND to a tower it means you
are within a certain vicinity and the call was not re*routed. The plaintiff was at
Tower 72 and it was INBOUND (not rerouted) — therefore she was in
Manhattan.
This plaintiff, says that Judge Sarah Merriam is either not paying
attention or purposefully misreading the information provided. The INBOUND
changed to OUTBOUND by Whalen on his report was so that on the second page
17

he could make the false narrative that the call had been rerouted. He knew, as
plaintiff pointed out, that to make the narrative on his report #2013*0213
placing plaintiff in the vicinity of Jane Emons home that he had to change the
INBOUND - which he did.
Magistrate Sarah Merriam is either biased or she is not listening to the
facts.
XIII. DID MAGISTRATE SARAH MERRIAM ERR IN HER RULING BY
IGNORED PARAGRAPH 36 THE MOST DAMNING EVIDENCE AGAINST
WHALEN AND EMONS. LIE #4
The lie is the error of omission: Sarah Merriam completely over looked
paragraph 36. In paragraph 36 of the Amended Complaint this plaintiff states
the following implying that this was not a simple mistake but instead a
premeditated criminal frame by Jane Emons and her buddy of 35 years, John
Whalen:
36. Second proof The bizarre appearance of a number on this litigant’s
phone record that is neither to nor from this litigant’s number is a due
enough that Emons allegedly worked with a telephony conspirator. At the
time of the alleged planted call, this litigant was simultaneously making a
call of her own from New York City. Both calls ended at the exact same
time, 00:19:13, with two separate tower locations - 56 and 72 which are
two hours apart. That is patently impossible and proof positive that
Emons allegedly, with premeditation, worked with a telephone
conspirator to criminally frame.

In above paragraph 36 of her Amended Complaint this plaintiff made the
point that it is patently impossible for two calls from the same phone to end at
the exact same millisecond and yet be linked to two separate cell towers - two
18

hours apart. Magistrate Sarah Merriam ignored any mention of this fact instead
exonerated Whalen with her words which go on the record. Outrageous.
This litigant presented an affidavit of a telephony expert and she would
like the opportunity to present to a jury an expert who will testify to the fact
that two calls ending at the exact millisecond and linked to two separate cell
towers, 56 and 72, two hours apart is not possible, plus the call located near
tower 56, which is in the vicinity of Emons' house, is not to, nor from, plaintiffs
phone number. What the hell is it doing on plaintiffs phone record? Magistrate
Merriam makes no mention of paragraph 36 in her Recommended Ruling or of
these two facts. Clearly she did this for a reason - bias.
God was on the plaintiffs side she was in Manhattan on the night of the
ring and-run and received a call from her roommate regarding her cat. Normally
plaintiff would have been home sleeping with no alibi and she’d be in prison
now. A scary thought and a narrative that was clearly Whalen and Emons’ goal.
The plaintiff believes it is reckless and irresponsible of Magistrate
Merriam to pass judgement on a case at the complaint level. The Recommended
Ruling is designed to dismiss cases that are without merit. This plaintiff says
that is not what is happening here. Judge Merriam, threw the case for the
powerful.
This proof goes directly to two causes of action; and the ignoring of this
paragraph 36 in the Amended Complaint by Magistrate Merriam is proof of bias
by this Magistrate.
19

XIV. DID THIS MAGISTRATE ERR WHEN SHE FAILED TO ADDRESS ANY
OF THIS PLAINTIFFS ARGUMENTS 20
On number of 72 on the docket, Motion for Clarification (A75) Magistrate
Sarah Merriam dismissed it and renamed it! This litigant has supplied a Motion
for Clarification (A67) which was promptly dismissed by Magistrate Sarah
Merriam as a Motion to Reargue. Not at all. This litigant asked for clarification
as to the dismissal for the Appellate Court and the fact that Sarah Merriam
made no reference to any of this litigant’s argument, ripe with case law
defending her causes of action. In the Order Magistrate Merriam states“This Motion is essentially a Motion to Reconsider an endorsement (Doc.
No. 49) of a Recommended Ruling (Doc. No. 9), which entered on
04/09/2019. This "Motion for Clarification" (Doc. No. 54) was filed on
10/4/2019, well past the time to file a Motion to Reconsider. “

Maybe that is true, but that doesn’t change the fact that Magistrate
Merriam did not mention any of the rebuttal arguments in this litigant’s
Objection (A36) and Further Objection (A53). Bias can be the only reason why
she failed to allow oral argument, and failed to respond to the Objections.
To be clear, in the Further Objection to the Recommended Ruling filed on
Jan. 15, 2020 (A53), this litigant asked for Oral Argument (A54). Since this was
a dismissive, dispositive motion that would have eliminated the case, didn’t this
litigant have a right to Oral Argument? This litigant was very clear that some of
Magistrate Merriam’s arguments this litigant disputed and can prove, with case
law, if allowed to - the exact opposite. This litigant was asking for oral
20

argument because she disagreed with the Courts’ ruling to eliminate all other
causes of action. They had not been fleshed out enough and the Motion for
Clarification was to also clear up some misconception that the Magistrate had
stated.
XV. DID THIS MAGISTRATE ERR WHEN SHE DEMONSTRATED A CLEAR
DESIRE TO ELIMINATE THIS CASE BY ATTEMPTING TO ABUSE THE
PAUPEROUS STATUTES
In her Recommended Ruling Magistrate Sarah Merriam attempted to use
the following loophole in the law to dismiss this case. The Prison Litigation
Reform Act of 1995 ("PLRA") provides that a district court "shall dismiss" an in
forma pauperis complaint "if the court determines that. . . the action or appeal.
. . fails to state a claim on which relief may be granted." Pub. No. 104-134, §
804(a)(5), 110 Stat. 1321, 1321-74 (1996), codified at 28 U.S.C. § 1915(e)(2)
(1996).
This is the reason why Sarah Merriam used that excuse, to eliminate the
causes of action. She was choosing to capitalize on the pauperus status of this
litigant. This is dirty trick and her abuse of the “failure to state a claim” for all
causes of action in a 35 page Amended Complaint, detailed which included 200
pages of evidence is outrageous! This litigant is articulate and perhaps a little
wordy but a child could read the Amended Complaint, view the annexed
evidence end determine there was guilt. Give me break, give me justice.
XVI. THE ABUSE OF ‘FAILURE TO STATE A CLAIM TO WHICH RELIEF
CAN BE GRANTED* IS A LIE (LIE #5) - A PLOY TO THROW THE CASE 21
21

There is always a reason a judge can find to dismiss a case. But this
litigant should have been afforded certain rights. Not only did she state a claim,
she backed it up with evidence. She was never given the opportunity for redress
in the denial of Oral Argument ■ twice. And § 68.10 states the following...if the Administrative Law Judge determines that the complainant has
failed to state a claim upon which relief can be granted. However, in the
prehearing phase of an adjudicatory proceeding brought under this part,
the Administrative Law Judge shall not dismiss a complaint in its entirety
for failure to state a claim upon which relief may be granted, upon his or
her own motion, without affording the complainant an opportunity to
show cause why the complaint should not be dismissed. [Order No. 220399, 64 FR 7075, Feb. 12, 1999] Case 3*18-cv-01991-JCH Document 64
Filed 01/03/20 Page 1 of 3 3.

The abuse of “failure to state a claim to which relief may be granted” in
the quoted law above, is to cut off at the knees poor people and/or prisoners from
ever getting justice. Additionally, this legal claim is easily abused as it is
primarily subjective. This litigant believes she is very articulate and clear.
The Amended Complaint was very clear, but if the court so deems- remand
and rules more clarity in doing so - this litigant will comply. Let the lawyers
make their arguments. Let Discovery happen. Rule § 68.10 says this litigant has
right that she was never given, remand, remove Merriam and Judge Hall and
grant this litigant the opportunity to do that. Or insist she get an attorney.
Federal Judge Underhill was hell bent in one case to give this litigant an
attorney. Then do it, here, whatever the provision to keep the case going.
Whatever it takes for justice.
22

XVII. BECAUSE MAGISTRATE SARAH MERRIAM WAS ABUSING
THIS LITIGANTS PAUPERUS STATUS, THIS LITIGANT FILED A
MOTION TO CHANGE HER STATUS. THIS MAGISTRATE ATTEMPTED TO
DISMISS CITING SECTION 1915(e)(2)(A)
On January 3, 2019 in a Motion for Order (A64), this litigant attempted to
change her pauperus status as she believed this Magistrate is abusing the
pauperus statutes and attempting to dismiss this case on something other than
the merits. The abuse of the “failure to state a claim” in the below case law is
clearly a loophole to get rid of the appeals of incarcerated prisoners. Because of
Magistrate’s actions in her Recommended Ruling, this litigant filed that motion
to change her status in this case from pauperis - to do that she is prepared to
pay the $500 filing fee (A64).
In her Motion (A64) this plaintiff requested to change her status from
pauperus to a paying litigant so that Magistrate Sarah Merriam could not use
the loophole describe above to dismiss the case base on the subjective “failure to
state a claim” — for all causes of action?
This litigant believes that this Magistrate was abusing the statute to
throw the case for the powerful this Magistrate has used it in an attempt to
eliminate three cause of action, at the complaint, level via a Recommended
Ruling. For this reason, and to combat this strategy, this litigant asked that her
status be changed away from pauperus. The request was ignored and rendered
moot by dismissal.

23

But Magistrate Sarah Merriam knows all the angles, and if there is
supposed to be any latitude for this pro se litigant, it is not possible in Merriam's
courtroom. She is hell-bent to dismiss this case in favor of the powerful. Who
cares whose lives they abuse. Who cares the damage they cause. Protect the
powerful at all costs. In her efforts the Magistrate accused this litigant in her
Motion for Order (A64) of lying and she gave her time to prove her status had
change. Magistrate Sarah Merriam citied the followingSection 1915(e)(2)(A) of the United States Code statesNotwithstanding any. filing fee, or any portion thereof, that may have been
paid, the court shall dismiss the case at any time if the court determines
that— (A) the allegation of poverty is untrue.
Magistrate Merriam stated the following,
’’Whitnum’s Motion similarly raises serious concerns as to the
truthfulness of her in forma pauperis application. The court orders
Whitnum to show cause by February 3, 2020, as to why it should not
dismiss this action under section 1915(e)(2) because her representations
on her in forma pauperis application were not true.”
More proof in Magistrate Merriam’s ongoing quest to ignore justice, the
law and to throw a case in favor of the powerful.
To thwart this crafty Magistrate, this litigant annexed on the record, her
offer letter from her new job (A88) . But what can we think of a judge who would
work so hard to throw a case? Magistrate Sarah Merriam is biased and remand
is in order.
Additionally, the Appellate Second Circuit touched upon the Pauperus
status but failed to mention the fact that when this litigant’s status changed she
24

attempted to correct that status in order to get out from under Magistrate
Merriam’s loophole.
THIS LITIGANT DID NOT REMOVE THE CAUSE OF ACTION
XVIH.
IF SHE DISAGREED WITH THE JUDGE. A RIGHT TO DEFEND CAUSES OF
ACTION VIA DISCOVERY IS IN ORDER

This litigant is not stupid and she can read. If this litigant appeased this
magistrate, Sarah Merriam and stripped out all the “recommendations” there
would be no case. No way. This litigant is not an incarcerated person, this is not
a frivolous case. This litigant is not rolling over and appeasing this biased
magistrate who expressed some serious misconceptions and resorted to some
blatant lies. Magistrate Sarah Merriam was clearly out to protect the powerful
and/or she has her own political bias regarding this plaintiffs stands, as a peace
activist and former political candidate, against the United States funding of the
Country of Israel. Clearly Merriam is biased and her actions prove it.
Regarding protect the powerful. Case in point- Magistrate Merriam said
there was no malicious prosecution because all of the charges were ended with
Accelerated Rehabilitation. Not true, the stalking charge was dropped on March
13, 2014 on the record in open court by John Whalen (A260) and the proof is
annexed. Magistrate Merriam ignored the proof. Malicious prosecution must
stand, as must the Conspiracy cause of action.
Rearguing the First and Fifth Amendments violations - shot down by
Magistrate Merriam, these two causes of action should stand for the following
25

outlined in the 39-page Amended Complaint (A91)- This is not the place to try
this case, nor is the 39-page complaint complete with 20 plus exhibits annexed
here (A119 through A157) but that is exactly what this biased Magistrate did.
A brief touch on the First and First Amendment Violation^ John Whalen
reopened a case already “administratively closed” by another police agency - the
Woodbridge Police. The Woodbridge Police has already determined there was no
connection with this plaintiff to Jane Emons doorbell and yet Whalen reopened
the case! And Kevin Kane allowed it. Whalen reopened and resumed it at the
prodding of his buddy Jane Emons. Why? Why go to such length to reopen and
pile on charge after bogus charge? This litigant was a first-time offender. That
never happens. Kevin Kane allowed his underling John Whalen to abuse the
system. When asked why he was there, Whalen was unabashed he was there for
“Jane my buddy of 35 years since we were both prosecutors.” It is important to
note that several of the charges against this litigant had to do with her
attempting to see and speak with her own husband, which were also caused by
Emons (at length in the Amended Complaint because it is germane), but the
charges predated the bogus ring-and-run accusation of June 22, 2013. The
orchestration by Whalen and Emons, clearly working in concert.
If allowed to proceed to deposition, this plaintiff believes that John
Whalen will not he. He knows this litigant, we they in court together for 36 court
appearances over the course of three years (violating her Sixth and 14th

26

Amendment rights) as Whalen abused the court system to prolong litigation and
he worked hard to put this litigant in prison for something. He would have
succeeded if this litigant decided to fight back and filed against him in federal
court.
Desperate to speak with her own husband and desperate to avoid jail for
crimes that were either not crimes, or crimes orchestrated by Jane Emons and
John Whalen, this litigant, weary of pacing every night for two years, filed a
lawsuit against Whalen and Emons. In that case 3-15-cv0959 plaintiff filed an
injunction (July 27, 2015 in 3-15-cv0959) to bring to trial or drop the charges.
The injunction was mentioned above - it was completely ignored by Federal
judge Underhill. What good is a Sixth Amendment right if you can’t get a judge
to enforce it. Kevin Kane and the defendants were apprised of all of the goings
on and did nothing to reel in John Whalen. It seems the powerful in Connecticut
are impervious and run amok with impunity.
XIX. FEDERAL JUDGE UNDERHILL, LIKE MAGISTRATE SARAH
MERRIAM AFFORDED RIGHTS TO THE POWERFUL

Federal Judge Underhill, clearly caved into the powerful and the
Injunction remains unheard on the merits to this day (July 27, 2015 in 3:15*cv
0959)! It is endemic to the Connecticut, every judge, including Magistrate
Merriam, and every state employee passes the buck to appease the powerful.
Nowhere was this more apparent that the Norwalk criminal court and 40 plus
emails this litigant wrote to Kevin Kane and Norwalk Court Clerk Charles Kim
27

and others and she fought to have more than six motions to dismiss heard. All
were ignored and never given a day in court. In Connecticut it is quite simply
impossible to get justice or to even be heard. Back to this case.
The filing of the federal case against Whalen, clearly rattled John Whalen
enough to finally get this litigant out of his cross-hairs. But all along the
defendants, Kevin Kane and his office, knew exactly what John Whalen was
doing. That is the failure to train, Canton, Ohio v. Harris.
But in addition, Whalen and Kane both knew that this plaintiffs true
phone records, exonerated her and proved the criminal orchestration by their
office, that is why they could not have a Motion to Dismiss heard. They buried
the evidence and that is a Brady violation.
Specifically, this litigant was denied discovery repeatedly by the criminal
court judges Wenzel, Hernandez, and Arnold. But she knew that in federal court
you do not need a judge to have a subpoena sent. She filed the federal claim
against Whalen for 6th Amendment violation and subpoenaed her own phone
records and had them sent to federal judge Underhill who put them under seal.
The true phone records proved Whalen’s orchestration of this plaintiffs
phone records on his report #2013-0213. Whalen was caught and he knew it. He
never suspecting such a move, as three judges four times in Norwalk Criminal
Court refused to sign this litigant’s subpoena to get her own phone records from
Sprint Corporation. Three judges four times in Norwalk Courthouse denied the
right.
28

Before he was exposed, Whalen was unabashed, that he was there to
prosecute this litigant at the behest of Jane Emons, his “buddy of 35 years since
were both prosecutors.” Emons is a cruel woman, a judge now disgrace nd
removed from power — a first in Connecticut history. A woman who was not only
destroying this plaintiffs life, but the lives of others. Her behind scenes antics,
and over the top behavior is why she is no longer a judge. Whalen was not there
in good faith; he was there to use the court system to torture and he knew
without the adjudication for the trespassing charge, unlawfully levied at Atria,
Darien this litigant could not see her dying husband. He knew that by
prolonging litigation this litigant could not go back to work as a New York City
teacher. Whalen knew, he was told. The court system was used to torture and he
was doing Jane Emons bidding by his own admittance to this plaintiff. That is
why it was such a crime for Federal Judge Stefan Underhill to ignored the
injunction request (3-15-cv*0959).
During that horrible chapter this litigant several times said to judges
Wenzel and Hernandez, ‘Tour honor, please send John Whalen back to Rocky
Hill, please put me on the regular docket with the regular folk.” Deaf ears. As
this litigant sat there once a month for years and everyone seemed to get on with
it except this case which was made to linger in total for 41 criminal court
appearance in all over three years. This litigant can no longer drink coffee or red
wine, as the permanent stress of believing that not only did Jane Emons railroad

29

into divorce, but through her friends, she was going to succeed in railroading
into prison.
The founding fathers developed a Sixth Amendment right because it is
cruel. A speedy trial should be everyone’s right. There should be right to have a
Motion to Dismiss with evidence heard fairly, there should be a right to be able
to gather discovery.
This case is about making the guilty pay for what they did, or for what
they allowed to happen to this litigant and her husband. He was a victim too. He
died alone without the comfort of his wife thanks to the actions of a cruel
woman- Jane Emons, John Whalen her minion, and the defendants in this case
who allowed such an abuse of the system to happen.
Kane and the Chief States Attorney’s Office must be held responsible.
This is the first case, by this plaintiff, against either. The run amok behavior of
so many of their employees including- Tamberlyn Conoplask, Mark Ramia,
Charles Coffey, and John Whalen demands redress. Clearly they were not
properly trained and Kevin Kane needs to be held responsible
The fact that Emons husband “Ed” is an employee of Kevin Kane’s office is
also telling. This litigant has no doubt that all of the players in this case, in this
small world of Connecticut knew each other and that is how this abuse
happened. What this Supreme Court needs to decide- Is the Court system
nothing more than well-paid state employees abusing their role to enact political
vendettas for their friends?
30

XX. THE CONSTITUTIONAL VIOLATIONS IN THE AMENDED COMPLAINT
MUST STAND. THE DISMISSAL WAS SUBJECTIVE, SO LEAVE IT TO A
JURY TO DECIDE
The “why” of all of it is clear if you know the big picture as explained in
the Amended Complaint (A91). Jane Emons was out to harm this litigant
because litigant, as a candidate, was vocally against the United States funding
of Israel. On July 16, 2012 Emons allowed a political heckler in the courtroom
This litigant documented it to Chief Administrative Judge Barbara Quinn
but in Connecticut there exists no right to preemptive or preliminary
disqualification of a judge. This plaintiff was forced to endure Jane Emons. The
First and Fifth Amendment should stand.
The Sixth Amendment and 14th - Whalen drove down from Rocky Hill
Connecticut to Norwalk Criminal Court for more than 35 times over the course
of three years. By not adjudicating the charges especially the trespassing charge
he kept this litigant from her infirmed husband to railroad into divorce. This
litigant had a right to due process. Please read the transcript when she tries to
have the Motion to dismiss heard for the Trespassing charge (A 157). It is a
travesty.
Whalen also abuse the 6th and 14th amendment to keep this litigant from ,
her job. He knew she could not work with pending criminal charges. So every
month we met in the courthouse. He spend the entire day there, three years. He
knew exactly what he was doing.

31

XXI. EMONS’ ROLE IN ALL OF THIS IS TELLING. DESPITE THE
FACT THAT SHE IS NO A LONGER A JUDGE, THE SYSTEM SEEMS STILL
BEHOLDEN TO HER. PLEASE BREAK THE PATTERN

The endless legalities have emerged as this plaintiff fights for justice
against the actions of one woman. This plaintiff has been a clog in the system
due to one woman. Jane Emons.
Jane Emons is powerful and clever and her manipulations are all about
the behind the scenes contact and smearing her detractors with tears and lies.
Case in point the gravamen of Whitnum v. Emons, FST-CV20-5022941-S, is that
Emons called up Senator Kissel behind the scenes and spoke of the June 22,
2013 ring and-run to make her appear as this litigant’s victim. Nothing could be
further from the truth!
Kissel believed Emons! This was televised. Senator Kissel waxes at length
apologizing to Emons for everything under the sun including the Holocaust. It
really would been very funny if it weren’t so infuriating. Despite the fact that
three other people on that day Noel Rodriquez, Nina Sarli, and Derrick Meyers
all testified of Emons’ unlawful abuse of restraining orders. All three had had
the unlawful restraining orders overturned by the Appellate court.
Still Senator Kissel believed Emons that this litigant had rang her bell
and ran, an event that never happened. Emons used this litigant’s well-known
political stands against the funding of Israel to attempt retain her role as a
judge by calling all her detractors “anti-Semitic”. This was echoed by Senator
32

Kissel and Senator Looney and others at Emons reconfirmation hearing. Finally
Rep. Minnie Gonzales piped in and put an end to the “anti-Semitic” nonsense.
At the 2-18-2018 reconfirmation hearing there were 21 judge up for
reconfirmation and yet there were few complaints about the majority. Rep.
Minnie Gonzales summed it up best, on page 151 of the February 16, 2018
hearing, she spoke directly to Emons,
“I think there may be around maybe 20 or 21 (judges for reconfirmation),
and I don’t see a lot of people here complaining about the rest. I receive
emails after emails after emails but all the emails they were complaining
about you,” said Rep. Millie Gonzales.
She then added that in those letters no one mentioned Emons’ “religion or
culture.” End of story, and that finally put an end to the anti-Semitic accusation
nonsense. Emons was not reconfirmed not because of anti-Semitism, but because
of her cruelty, bad behavior, inexplicable actions, rulings in defiance of the law.
The hearing is viewable at: http://ct-n.com/ondemand.asp?id=15000&jwsource=cl
This litigant never rang Jane Emons’ bell and ran. And for the remainder
of this litigant’ life, unless she gets justice, she will be known as a person who
stalked a judge, only that never happened.
Everything this litigant fought for, all her parents’ sacrifices - good decent
people, not the likes of Jane Emons, hardworking people who help others, not
destroy. How thrilled those parent were when this litigant attended and
graduated from Harvard University is all lost by the concerted smearing of Jane
Emons and the judges along the way who are so beholden or blinded by Emons’
33

power they refused to grant this litigant justice. What these judges are saying is
Jane Emons’ smears and lies, her reputation is more important that this
litigant’s. That is unacceptable. Make the guilty pay.
E.

CONCLUSION
The Amended Complaint is detailed and evidence is provided which

proves the fact that Kevin Kane was apprised in more than 40 emails (A157) and
he was obviously aware of what was going on. The details of all of his employees
who did not follow procedure is described and remains to be fleshed out with
discovery. They include Ms. Conplask, Mr. Ramia, Officer Charles Coffey, and
most especially John Whalen.
Again this litigant turns the Courts attention to the two cases of which
she relied heavily in the District Court case- City of Canton v. Harris- which is
the Deliberate Indifference Standard in 42 USC 1983 also known as “Failure to
Train Cases” and Brady v. Maryland, 373 U.S. 83 (1963) which specifically
addressed the withholding of evidence which violates a defendant's
constitutional right to due process. This judge claims that the Eleventh
Amendment bars a damages action against a State in federal court - well only if
a federal if a federal matter lives. She seemed hell-bent to stop this case at the
inception, to throw out the federal causes of action for that reason. These are the
causes of action and all were dismissed before discovery:
1.

The First Amendment

2.

The Fourth Amendment
34

3.

The Fifth Amendment,

4.

The Sixth Amendment of the United States Constitution, CPL § 30.20

5.

The Due Process Clauses of the United States Constitutions (U.S. Const.

amend. XIV; N.Y. Const., art. I, § 6).
6.

Claim for Malicious Prosecution

7.

Claim for Intentional and/or Reckless Infliction of Emotional Distress

8.

Claim Under 42 U.S.C § 1983

9.

Civil Conspiracy Claim Under 42 U.S.C § 1985(3)

10.

Direct Action Pursuant to Connecticut’s rules regarding insurance

companies
11.

Claim Under Connecticut Constitution, Article 1, SEC. 8, SEC 9, SEC 20

and Article 17
12.

Claim for Negligence and/or Negligent infliction of emotional distress.
They were well supported and clearly written. All of these causes of action

should be defended in the usual fashion with lawyers and not a Magistrate and
the Recommended Ruling. The Amended Complaint was well written and clear
enough for this case to move forward. The Recommend Ruling was nothing more
than a vehicle to dismiss the case against the powerful. It is nothing more than a
political ploy. These judges take an oath. The Recommended Ruling was not
appropriate.

35

Respectfully,
,Z_-

(jJ&tFUJhtr $<Z^4As

L. Lee Whitnum Baker

36

UNITED STATES COURT OF APPEALS
L. LEE WHITNUM
Plaintiff
No. CSCA2 no. 20-947
v.
Chief States Attorney, et al.

•

September 23, 2021

CERTIFICATION
I certify the person preparing the certificate may rely on the word or line count
of the word-processing system is 8253 words and that I used Century font size
12.
Sincerely,

L. Lee Whitnum

37

CERTIFICATION
I hereby certify that on September 23, 2021 a copy of the foregoing was sent via
US mail to the following*

CT Attorney General Office
AG-Special Litigation 165 Capitol Ave., 5th Floor
Hartford, CT 06106

And toPhil.miller@ct.gov

Signed,

L. Lee Whitnum Baker, pro se

38

UNITED STATES COURT OF APPEALS
L. LEE WHITNUM
Plaintiff
No. CSCA2 no. 20-947
v.
Chief States Attorney, et al.

•

September 23, 2021

CERTIFICATION
I certify the person preparing the certificate may rely on the word or line count
of the word-processing system is 8253 words and that I used Century font size
12.
Sincerely,

Z- jUba, uJd£bu£tn>
L. Lee Whitnum

**

CERTIFICATION
I hereby certify that on September 23, 2021 a copy of the foregoing was sent via
US mail to the following:

CT Attorney General Office
AG'Special Litigation 165 Capitol Ave., 5th Floor
Hartford, CT 06106

And to:
Phil.miller@ct.gov

Signed,

Z- jLul CiMt&tcthts
L. Lee Whitnum Baker, pro se

